                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL

~                                                          OFFICE OF WESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: A08040024
                                                                                I            Page 1 of 1



                 A proactive review by NSF OIG identified alleged plagiarism within an NSF proposal. The'
          case was opened for Administrative Investigation.

                 Analysis indicates that the allegation was not substantiated because the Subject had
          legitimate rights to use the source text.

                    Accordingly, this case is closed.




NSF 01G Form 2 (1 1/02)
